mwe.com
Paul W. Hughes
Attorney at Law
phughes@mwe.com
+1 202 756 8981

April 20, 2020
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Joseph A. Zadeh and Jane Doe v. Mari Robinson, et al.
No. 19-676

Dear Mr. Harris:
I represent petitioner in the above-captioned case. The certiorari materials are currently scheduled
for distribution on April 22, 2020.
Pursuant to this Court’s order of March 19, 2020, good cause exists to delay distribution until the
Court’s next distribution date for paid cases, which I understand to be April 28, 2020. Given the severity
of COVID-19, my firm has closed its offices until April 30, 2020, at minimum. On a personal level, I have
taken sole responsibility for childcare of my two young children. In light of several competing deadlines,
these obligations have substantially altered my ability to make progress with respect to the reply brief.
I therefore respectfully request that the distribution of the petition, brief in opposition, and reply
be delayed to April 28, 2020, from April 22, 2020. Circulation on either date will result in the petition
going to conference on May 14, 2020. I have informed respondent’s counsel, but have not yet received a
response.
Thank you for your assistance.

Sincerely,

_______________________
Paul W. Hughes

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

